APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion of the United States Court of
Appeals
for
the
Ninth
Circuit,
United States v. Henning, No. 18-50005
(Nov. 21, 2019) ............................................. App-1
Appendix B
Order of the United States District Court
for the Central District of California,
United States v. Henning, No. 16-cr00029-CJC-7 (Dec. 20, 2017) ....................... App-5
Appendix C
Order of the United States Court of
Appeals for the Ninth Circuit Denying
Rehearing and Rehearing en Banc,
United States v. Henning, No. 18-50005
(Feb. 5, 2020) ............................................. App-32
Appendix D
Relevant Provision, Statutes, & Rule
U.S. Const. amend. V .......................... App-34
18 U.S.C. § 924(c) ................................ App-35
18 U.S.C. § 1951(a).............................. App-39
Fed. R. of Crim. P. 29 .......................... App-40

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 18-50005
________________
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellant,

JUSTIN MARQUES HENNING, aka J-Stone,
Defendant-Appellee.
________________
Appeal from the United States District Court
for the Central District of California
No. 8:16-cr-00029-CJC-7
Hon. Cormac J. Carney, District Judge, Presiding
________________
Argued and Submitted November 4, 2019
Pasadena, California
Filed November 21, 2019
ECF Document 76-1
NOT FOR PUBLICATION
________________
MEMORANDUM *

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App-2
Before: MURGUIA and HURWITZ, Circuit Judges,
and GUIROLA, ** District Judge.
A jury found Justin Henning guilty of conspiracy
to commit Hobbs Act robbery, Hobbs Act robbery, and
brandishing a firearm in furtherance of a crime of
violence in connection with a “smash-and-grab”
robbery at a jewelry store in the Del Amo mall (“the
Del Amo Mall Robbery”) in Los Angeles, California.
The district court then granted Henning’s motion for
acquittal on all charges and conditionally granted a
new trial. We have jurisdiction over the government’s
appeal under 28 U.S.C. § 1291. We reverse the
judgment of acquittal but affirm the grant of a new
trial.
1. Viewing the evidence in the light most
favorable to the prosecution, a reasonable jury could
have found that Henning was guilty of Hobbs Act
robbery. See United States v. Nevils, 598 F.3d 1158,
1164-65 (9th Cir. 2010) (en banc). Two co-conspirators
testified that Henning was the “emergency pickup” or
“extra driver” for the robbery, and that he attended a
planning meeting shortly before the Del Amo Mall
Robbery at which individual roles were discussed. See
United States v. Necoechea, 986 F.2d 1273, 1282 (9th
Cir. 1993) (“The uncorroborated testimony of an
accomplice is sufficient to sustain a conviction unless
it is incredible or insubstantial on its face.”). In
addition, cell phone records showed that Henning’s car
was in the vicinity of the Del Amo mall at the time of
** The Honorable Louis Guirola, Jr., United States District
Judge for the Southern District of Mississippi, sitting by
designation.

App-3
the robbery and he was in contact with several of the
co-conspirators.
2. The evidence, viewed in the light most
favorable to the prosecution, was also sufficient to
support Henning’s conspiracy conviction. See United
States v. Si, 343 F.3d 1116, 1123-24 (9th Cir. 2003). A
co-conspirator testified that Henning attended two
meetings at which the robbery was planned. Henning
drove to the Del Amo mall on one occasion with coconspirators when the robbery was aborted and was
near the mall and in contact with co-conspirators
when the robbery occurred. This evidence established
both a conspiratorial agreement and Henning’s
knowledge of the conspiratorial goal. See United
States v. Mesa-Farias, 53 F.3d 258, 260 (9th Cir. 1995)
(“Agreement may be shown by evidence of coordinated
activity between the defendant and the alleged
coconspirators.”).
3. There was also sufficient evidence to support
Henning’s 18 U.S.C. § 924(c) conviction for
brandishing a firearm in furtherance of a crime of
violence. See United States v. Allen, 425 F.3d 1231,
1234 (9th Cir. 2005) (stating that a defendant may be
criminally liable for a § 924(c) violation as a
conspirator if the use of a gun was “reasonably
foreseeable” and “in furtherance of the conspiracy”)
(internal quotation marks omitted). A co-conspirator
testified that Henning attended the first planning
meeting where a gun was present and its potential use
in the robbery was discussed. See Rosemond v. United
States, 572 U.S. 65, 77 (2014) (holding that a
defendant can also be convicted of aiding and abetting
a § 924(c) violation when he actively participates in

App-4
the crime of violence and “knows that one of his
confederates will carry a gun”).
4. The district court did not “clearly and
manifestly” abuse its discretion in granting Henning
a new trial on all three counts. See United States v. A.
Lanoy Alston, D.M.D., P.C., 974 F.2d 1206, 1212 (9th
Cir. 1992) (internal quotation marks omitted).
“[D]espite the abstract sufficiency of the evidence to
sustain the verdict,” id. at 1211 (internal quotation
marks omitted), the district court accurately recited
the legal standard for granting a new trial, and
identified significant issues with the evidence
underlying the verdict. The primary pickup driver for
the Del Amo Mall Robbery testified that he did not
know where Henning was during the robbery and did
not have Henning’s phone number. Henning’s name
and number were not written on a piece of paper
listing the robbery participants found in the primary
pickup driver’s car. There was no footage of Henning’s
car in the parking lot of the mall around the time of
the robbery, and there was conflicting testimony about
whether Henning even attended the first planning
meeting. “Given the district judge’s familiarity with
the evidence and his ability to evaluate the witnesses,
and in light of the deferential standard of review we
are bound to apply in reviewing an order granting a
new trial, we cannot say the district judge abused his
discretion.” Id. at 1213.
REVERSED IN PART AND AFFIRMED IN
PART.

App-5
Appendix B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
SOUTHERN DIVISION
________________
No. SACR 16-00029-CJC
________________
UNITED STATES OF AMERICA,
v.

Plaintiff,

JUSTIN MARQUES HENNING,
Defendant.
________________
Filed December 20, 2017
ECF Document 1126
________________
ORDER GRANTING DEFENDANT HENNING’S
MOTION FOR A JUDGMENT OF ACQUITTAL
I. INTRODUCTION
On September 22, 2017, after a four-week trial, a
jury found Defendant Justin Marques Henning guilty
of the following charges: (1) aiding and abetting or
conspiring with others to commit Hobbs Act robbery
at Ben Bridge Jeweler in Torrance, California (“the
Del Amo robbery”); (2) aiding and abetting or
conspiring with others, who knowingly brandished a
firearm during and in relation to the Del Amo robbery;
and (3) conspiracy to commit Hobbs Act robbery.
Henning now moves to set aside the jury’s guilty
verdict for conspiracy, robbery, and brandishing a

App-6
firearm, arguing that there was insufficient evidence
to support that verdict. The Government opposes
Henning’s motion, contending that Henning’s
presence at two planning meetings for the Del Amo
robbery, his presence in the general vicinity of the
robbery, his affiliation with those involved in that
robbery, and his knowledge that the robbery was going
to occur are sufficient to support the jury’s guilty
verdict. The Court disagrees with the Government.
Mere presence, affiliation and knowledge are not
sufficient to prove guilt beyond a reasonable doubt.
More evidence is needed to support a criminal
conviction for conspiracy, robbery, or brandishing a
firearm. Specifically here, the Government was
required to present evidence that Henning said or did
something to prove that he intentionally participated
or joined in the conspiracy, or said or did something to
prove that he knowingly aided and abetted the Del
Amo robbery at which a firearm was brandished.
Because the Government failed to present such
evidence, the Court must set aside the jury’s guilty
verdict and enter a judgment of acquittal on all three
counts.
II. BACKGROUND
The operative Third Superseding Indictment
charged Henning with conspiracy to commit Hobbs
Act robbery (Count One), four counts of Hobbs Act
robbery (Counts Two [Rolex Boutique Geary’s, Los
Angeles], Six [Manya Jewelry, Woodland Hills], Nine
[Westime, West Hollywood], and Eleven [Ben Bridge
Jeweler, Torrance]), and two counts under 18 U.S.C.
§ 924(c) with brandishing enhancements (Counts Ten
[Westime, West Hollywood] and Twelve [Ben Bridge

App-7
Jeweler, Torrance]). (Dkt. 537.) The grand jury
returned
Henning’s
indictment
along
with
indictments for several co-defendants who were
charged with similar counts. The charges arose from a
series of “smash and grab” robberies that occurred at
jewelry stores across Southern California. After a
four-week jury trial, the jury convicted Henning of the
three counts pertaining to the Del Amo robbery
(Counts One, Eleven, and Twelve), and acquitted
Henning of all other counts.
Viewed in the light most favorable to the
Government, evidence at trial showed the following
related to Henning and the Del Amo robbery:
On February 26, 2016, Robert Johnson, Jameson
LaForest, Evan Scott, Michael Germeille, Cornell
Stephen, and Wilson Elima met at Morningside Park
in Inglewood, California. (Dkt. 1045 [Transcript
8/23/17 Vol. I] at 38, 42; Dkt. 1046 [Transcript 8/29/17
Vol. I] at 99, 114.) Elima testified at trial that Henning
was present at this meeting, (Transcript 8/23/17 Vol. I
at 38, 42), but Stephen testified that Henning was not
present, (Transcript 8/29/17 Vol. I at 99, 114).
During this meeting, Johnson discussed the
robbery of Ben Bridge Jeweler at the Del Amo mall in
Torrance. (Transcript 8/23/17 Vol. I at 38.) Johnson
assigned the following roles for the robbery: Elima
would be the getaway driver, Scott would be the
gunman, and Stephen, with another man named
Shane Lewis, would smash the glass cases in the store.
(Id. at 38–39.) Elima testified that Henning was
present for the entire meeting, but said nothing during
the meeting. (Id. at 41.) At some point, Elima was told
that Johnson assigned Henning the role of “emergency

App-8
pick up.” (Id.) Elima testified that that an “emergency
pick up” would be used if something happened to the
getaway driver during the robbery. (Dkt. 923
[Transcript 8/22/17 Vol. II] at 64–65.) There was no
testimony presented at trial that Henning
acknowledged, accepted, or responded to Johnson
assigning the role of “emergency pick up.” Nor was
there testimony that Johnson assigned Henning the
role of “emergency pick up” at this meeting.
Johnson had a firearm at the meeting, and told
Elima that it would be “the element of surprise.”
(Transcript 8/23/17 Vol. I at 40–41.) LaForest gave
Stephen and Lewis each a backpack, hammer, ski
mask, and gloves, and to Scott gloves and a ski mask,
to use for the robbery. (Transcript 8/29/17 Vol. I at
106–07.) There was no testimony presented at the
trial suggesting that Henning saw the firearm or any
of the materials for the robbery, nor was there any
testimony even suggesting that he heard others
discussing these items.
After the meeting, many of the meeting
participants traveled to the Del Amo mall, planning to
commit the robbery. (Transcript 8/23/17 Vol. I at 42.)
Henning was not in this group. (Id.) At the mall, the
group met with Stanley Ford and Shane Lewis. (Id.)
Johnson circled around the mall in his motorcycle and
LaForest parked his car in another parking lot.
(Transcript 8/29/17 Vol. I at 108.) Most of the men
waited outside while Ford went inside the mall to
scope out the Ben Bridge store. (Transcript 8/23/17
Vol. I at 43.) Johnson then told Elima he was going to
make sure no police were around. (Id.) At that point,
Johnson handed Elima the firearm, and Elima handed

App-9
the firearm to Lewis. (Id. at 43–44.) When Ford
returned to the group, he reported that a girl was
sitting right by the store. (Id. at 44.) After some
deliberation, the robbery was called off. (Id. at 45.)
Three days later, on the morning of February 29,
2016, Johnson, LaForest, Henning, Scott, Ford, Lewis,
Stephen, and Germeille met at Morningside Park.
(Transcript 8/23/17 Vol. I at 49; Transcript 8/29/17
Vol. I at 113, 115.) Elima testified that Johnson said
there was no need for further discussion. (Transcript
8/23/17 Vol. I at 50.) Stephen testified that Johnson
spoke at the meeting and they discussed “the same
thing we discussed on Friday . . . just making sure
everybody knows their position to take.” (Transcript
8/29/17 Vol. I at 114.) Again, Henning said nothing at
the meeting and there was no testimony that he heard
Johnson or anybody else say anything about the
robbery. Elima and Stephen testified that Henning
was supposed to be the “emergency pick up.”
(Transcript 8/23/17 Vol. I at 51; Transcript 8/29/17
Vol. I at 113, 115.) Stephen testified that LaForest told
him that Henning would be an extra driver,
(Transcript 8/29/17 Vol. I at 115), 1 and “to [his]
knowledge” Henning was an extra driver, (id. at 90). 2
Stephen stated in his plea agreement that LaForest explained
to him that Henning was the “back up driver.” (Case No. 8:16-cr00037-CJC-2 Dkt. 97 at 15–16.) At his Change of Plea Hearing,
on June 17, 2016, Stephen also said that LaForest had told him
that Henning was an emergency pick up driver, and that he did
not know this fact on his own. (Transcript 8/29/17 Vol. II at 70–
71.)
1

2 Stephen testified that he had never met Henning prior to this
meeting. (Transcript 8/29/17 Vol. I at 114.)

App-10
Stephen also testified he did not know why an extra
driver was needed. (Id.)
All of the individuals from the meeting then
supposedly traveled to the Del Amo mall. (Transcript
8/23/17 Vol. I at 51; Transcript 8/29/17 Vol. I at 116.)
Although Elima testified that Henning traveled to the
Del Amo mall, (Transcript 8/23/17 Vol. I at 51), he also
testified that he did not know where Henning was
during the robbery, (Transcript 8/24/17 at 231).
Stephen testified that Henning arrived at the meeting
in his own car, a black Infiniti truck. (Transcript
8/29/17 Vol. I at 116.) Stephen also testified that when
the men traveled to the Del Amo mall, they took the
same positions as they did on Friday, which meant
that Germeille drove Scott, Lewis, and Stephen, while
Elima, Ford, Johnson, and LaForest traveled alone.
(Id. at 115–16.) Thus, Henning presumably drove by
himself from the meeting. Elima’s testimony
corroborates this inference, as Elima testified that
Henning drove away from the Friday meeting alone in
his black Infiniti truck. (Transcript 8/23/17 Vol. I at
52.) There was no testimony presented at trial that
Henning drove anyone from the meeting to the Del
Amo mall or that Elima or Stephen saw Henning or
his car ever again after the meeting. In fact, both
Elima and Stephen testified that they had no idea
where Henning was during the robbery. Elima
testified that he did not know where Henning was
during the robbery, (Transcript 8/24/17 at 231), but
that he was “somewhere around” the mall, (id. at 216).
Stephen testified that he never saw Henning at the
mall during the robbery. (Transcript 8/29/17 Vol. II at
71.)

App-11
Germeille drove Scott, Lewis, and Stephen to the
mall, where they parked next to Elima and waited for
a phone call. (Transcript 8/29/17 Vol. I at 108, 116.)
Once Ford arrived at the mall, he walked into the Ben
Bridge jewelry store, then came out and gave “the
green light” to go forward with the robbery.
(Transcript 8/23/17 Vol. I at 52.) Elima did not specify
who Ford gave the green light to, however, Stephen
testified that “they,” meaning Germeille, Scott, Lewis,
and Stephen, “got a phone call from whoever was
inside the mall.” (Transcript 8/29/17 Vol. I at 116.)
Once they got the phone call, Germeille dropped off the
three other men outside the mall and Scott, Lewis, and
Stephen went directly into the Ben Bridge jewelry
store. (Id.) When the robbers reached the store, Scott
pulled out a firearm, got the workers to the back of the
store, and kept them on the ground. (Id. at 116–17.) 3
Lewis and Stephen followed Scott in, smashed the
glass cases containing Rolex watches, and grabbed the
watches. (Transcript 8/29/17 Vol. I at 116–17.) The
time of the crime was approximately 10:36 a.m.,
(Dkt. 1054 [Transcript 9/12/17 Vol. I] at 55), and
Stephen testified that the robbery lasted less than a
minute, (Transcript 8/29/17 Vol. I at 117).
Scott, Lewis, and Stephen left the store and got
into Elima’s car, which was waiting outside the mall
by the door. (Transcript 8/23/17 Vol. I at 52–53;
Transcript 8/29/17 Vol. I at 119.) Elima testified that
he waited three to five minutes outside of the mall
waiting for the robbers to come out. (Transcript
3 Stephen testified that he did not know it was going to be an
armed robbery prior to Scott pulling out the firearm. (Transcript
8/29/17 Vol. I at 117–18.)

App-12
8/23/17 Vol. I at 52.) Elima drove to a designated
switch-off spot, where the men met with LaForest,
who was waiting in a different car, and gave him the
stolen goods. (Transcript 8/23/17 Vol. I at 55–57.)
Stephen testified that the switch-off spot was in
another parking lot. (Transcript 8/29/17 Vol. I at 120.)
From there, Elima drove to a grocery store and
stopped to pull off the paper license plate covering his
real plate. (Id.) At the grocery store, Scott took the
backpack from Stephen, which contained the gun, and
left Elima’s car to get into Germeille’s car, which was
behind Elima’s car. (Id. at 120–21.) Elima then drove
Stephen and Lewis to the South Bay Galleria, where
they waited for about a minute, then drove onto the
freeway back to Inglewood. (Id. at 121.) While on the
freeway, the state police pulled over Elima’s car while
Elima, Stephen, and Lewis were inside. (Id. at 122;
Transcript 8/23/17 Vol. I at 58–59.) All three men were
arrested. (Id.; Transcript 8/29/17 Vol. I at 122.)
At the time of his arrest, Elima had a note in his
car, provided by LaForest, which contained the names
and phone numbers of people who were supposed to
participate in the Del Amo robbery. (Id. at 62–63, 64–
65.) Henning was not listed on the note. (Id.) Neither
Elima nor Stephen knew or had Henning’s phone
number in his phone. (Dkt. 928 [Transcript 8/24/17] at
231; Transcript 8/29/17 Vol. II at 71.)
The Government submitted into evidence a video
of the Del Amo parking lot during the time of the
robbery. (Transcript 8/24/17 at 213.) Elima viewed the
video and identified his own car and Germeille’s car.
(Id. at 214–25.) Stephen testified that the spot where
he met up with Johnson could be seen in the video, but

App-13
his actual meeting with Johnson was not captured on
the video. (Dkt. 966 [Transcript 8/29/17 Vol. II] at 133–
34.) Both Elima and Stephen testified that Henning
was not in the video. (Transcript 8/24/17 at 215–16;
Transcript 8/29/17 Vol. II at 10–11.)
Elima was one of the defendants charged in
connection with the Del Amo robbery. Elima entered
into a plea agreement, which was filed with the Court
on June 27, 2016. Elima did not mention Henning in
the factual basis of his plea agreement, (Transcript
8/24/17 at 222), nor in his Change of Plea Hearing on
June 28, 2016, (id. at 226). Elima first mentioned that
Henning was the “emergency driver” for the Del Amo
robbery during a meeting with the Government on
July 26, 2017. (Id. at 230.) Stephen was also charged
in connection with the Del Amo robbery. Stephen
entered into a plea agreement, which was filed with
the Court on June 7, 2016. Stephen’s plea agreement
listed Henning amongst many others who agreed to
commit the Del Amo robbery, (Transcript 8/29/17
Vol. II at 69–70), and stated therein that LaForest
explained to him that Henning was the “back up
driver,” (Case No. 8:16-cr-00037-CJC-2 Dkt. 97 at 15–
16). At his Change of Plea Hearing, on June 17, 2016,
Stephen said that LaForest had told him that Henning
was an emergency pick up driver. (Transcript 8/29/17
Vol. II at 70–71.)
The Government presented evidence that
Henning was connected to a cell phone number, “the
0121 number.” Henning’s moniker was “J-Stone,” and
the 0121 number was saved in LaForest’s phone as JStone’s number. (Ex. 136B at 832–33 & entry 25, 29–
31.) In addition, the 0121 number was saved in

App-14
Henning’s girlfriend’s phone as the number for “Mi
Love.” (Ex. 133B at 30–41.) Other telephone numbers
associated with Henning were also stored on his
girlfriend’s phone as the number for “Mi Love.” (Ex.
133E.)
FBI Special Agent Kevin Boles testified that the
0121 number connected to a cell tower within the
vicinity of the Del Amo mall from 10:05 a.m. to 10:40
a.m. on February 29, 2016. (Transcript 9/12/17 Vol. I
at 54–57, 61–63.) Boles also testified that there were
multiple calls between phone numbers associated with
LaForest, Johnson, and the 0121 number between
10:04 a.m. and 10:43 a.m. (Id. at 55–59, 61–63.) Boles
did not testify about any subscriber information for
the 0121 number that would associate it with
Henning, and did not perform an extraction report on
the 0121 number. (Id. at 102–04.) Boles did testify,
however, that between January 26, 2016, and March
1, 2016, the 0121 number most frequently connected
to a cell site that was 260 yards from Henning’s
residence, (id. at 53–54), and that Henning’s girlfriend
frequently called the 0121 number, (Ex. 133B at 30–
41).
III. DISCUSSION
Henning claims that his convictions rest on
insufficient evidence. On a motion for judgment of
acquittal, the Court will uphold a conviction if,
“viewing the evidence in the light most favorable to
the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a
reasonable doubt.” United States v. Reed, 575 F.3d
900, 923 (9th Cir. 2009) (quoting United States v.
Herrera-Gonzalez, 263 F.3d 1092, 1095 (9th Cir.

App-15
2001)). “When viewing the evidence in the light most
favorable to the government,” the Court “may not
usurp the role of the finder of fact by considering how
[the Court] would have resolved the conflicts, made
the inferences, or considered the evidence at trial.”
United States v. H.B., 695 F.3d 931, 935 (9th Cir. 2012)
(quoting United States v. Nevils, 598 F.3d 1158, 1164
(9th Cir. 2010) (en banc)). “Therefore, in a case
involving
factual
disputes
and
credibility
determinations,” the Court “must presume ... that the
trier of fact resolved any such conflicts in favor of the
prosecution, and must defer to that resolution.” Id.
(citations omitted). “Circumstantial evidence ‘can be
used to prove any fact,’ although ‘mere suspicion or
speculation does not rise to the level of sufficient
evidence.’” United States v. Dinkane, 17 F.3d 1192,
1196 (9th Cir. 1994) (quoting United States v. Stauffer,
922 F.2d 508, 514 (9th Cir. 1990)).
A. Count Eleven — The Del Amo Robbery
In Count Eleven, Henning was charged with
aiding and abetting or conspiring with others to
commit the Del Amo robbery. The elements of a Hobbs
Act robbery in violation of 18 U.S.C. § 1951(a) are:
(1) the defendant made or induced the victim to part
with property by the wrongful use of actual or
threatened force, violence, or fear; (2) the defendant
acted with the intent to obtain property; and
(3) commerce from one state to another was affected in
some way. (Dkt. 961 (Jury Instructions — Given),
Court’s Instruction No. 33; Ninth Circuit Model
Criminal Jury Instruction No. 8.143A.) The jury was
instructed that a defendant may be found guilty of
Hobbs Act robbery even if the defendant personally

App-16
did not commit the act or acts constituting the crime,
but aided and abetted in its commission. (Jury
Instructions — Given, Court’s Instruction No. 36.) The
elements of aiding and abetting a Hobbs Act robbery
are: (1) interference with commerce by robbery was
committed by someone; (2) the defendant aided,
counseled, commanded, induced or procured that
person with respect to at least one element of
interference with commerce by robbery; (3) the
defendant acted with the intent to facilitate
interference with commerce by robbery; and (4) the
defendant acted before the crime was completed. (Id.;
Ninth Circuit Model Criminal Jury Instruction
No. 5.1.)
The jury was instructed on the aiding and
abetting theory of responsibility as follows:
[I]t is not enough that the defendant merely
associated with the person committing the
crime, or unknowingly or unintentionally did
things that were helpful to that person, or
was present at the scene of the crime. The
evidence must show beyond a reasonable
doubt that the defendant acted with the
knowledge and intention of helping that
person commit interference with commerce
by robbery. A defendant acts with the intent
to facilitate the crime when the defendant
actively participates in a criminal venture
with advance knowledge of the crime and
having acquired that knowledge when the
defendant still had a realistic opportunity to
withdraw from the crime.

App-17
(Jury Instructions — Given, Court’s Instruction
No. 36.) The jury was also instructed as follows:
Mere presence at the scene of a crime or mere
knowledge that a crime is being committed is
not sufficient to establish that the defendant
committed the crime. The defendant must be
a participant and not merely a knowing
spectator. The defendant’s presence may be
considered by the jury along with other
evidence in the case.
(Id., Court’s Instruction No. 51.)
The evidence shows that Henning was present at
one or two planning meetings for the Del Amo robbery
and then in the general vicinity of the Del Amo mall
during the robbery. At most, a rational trier of fact
could conclude that Henning was a knowing spectator
of the crime. This is simply not sufficient for a rational
trier of fact to find beyond a reasonable doubt that the
essential elements of a Hobbs Act robbery have been
met under an aiding and abetting theory of
responsibility.
The Government presented no evidence that
Henning was an active participant in either planning
meeting. Indeed, Henning never spoke during either
planning meeting. 4 There also was no evidence that
Henning helped select the target of the crime or plan
its commission. There was no evidence that Henning
aided the robbery by providing advice or directions.
There was no evidence that Henning counseled any
robbery participant or assigned roles. There was no
4 The cooperating witnesses’ testimony was contradictory as to
whether Henning was even at the first planning meeting.

App-18
evidence that Henning gave any orders or commands.
And there was no evidence that Henning encouraged
any of the robbery participants, recruited them to
conduct the robbery, or provided them any equipment.
Without such evidence, Henning’s robbery conviction
based on an aiding and abetting theory of
responsibility cannot stand. Compare Ramirez v.
United States, 363 F.2d 33, 34 (9th Cir. 1966)
(vacating the defendant’s conviction for two counts
regarding drug smuggling on an aiding and abetting
theory of responsibility where the court found “in the
record no action, by word or act, on the part of [the
defendant] to make the crime succeed except [the
defendant’s] knowledge that a crime was to be
committed, and that he was present at the scene.”)
with United States v. Tibbs, 685 F. App’x 456, 466 (6th
Cir. 2017), cert. denied, No. 17-5099, 2017 WL
2909378 (Oct. 2, 2017) (holding there was sufficient
evidence of the defendant’s intent to facilitate the
robbery where the government presented evidence
that the defendant “was present when the Vice Lords
were planning the robbery, provided advice on how to
commit the offense, and used some of the proceeds to
pay for the principals’ tattoos and a Vice Lords
meeting in Chicago.”)
The Government argues that the evidence
demonstrates that Henning acted as an emergency
pick up driver while other men committed the Del
Amo robbery. Elima and Stephen did testify that
Henning was the emergency pick up driver for the
robbery, but the Government presented no evidence
that Henning accepted or acknowledged this role.
Indeed, the Government presented no evidence that
Henning even heard Johnson assign him the role of

App-19
emergency pick up driver. 5 See United States v. Hill,
464 F.2d 1287, 1289 (8th Cir. 1972) (holding that the
evidence was insufficient to sustain the conviction of
aiding and abetting the commission of a bank robbery
where the defendant nodded in assent while present
at one conversation where roles of the participants
were discussed and who departed in a participant’s
vehicle on the day of the robbery, noting that “passive
assent without affirmative action under those
circumstances was insufficient. The mere fact that
[the court] may speculate that [the defendant]
ultimately would have participated is not enough.”)
The Government also argues that the cell tower
data for the 0121 number corroborates that Henning
performed his role in the robbery. The cell tower data
demonstrates that the 0121 number associated with
Henning was in the vicinity of the Del Amo mall
during the robbery. This corroborates Stephen’s
testimony that Henning traveled to the Del Amo mall
after the February 29, 2016, planning meeting.
However, neither Elima nor Stephen knew where
Henning was during the robbery, and neither
contacted him, or even could contact him, because they
did not have his phone number. Henning was also not
visible in the surveillance video that captured the
meet-up spot for the robbery participants. Further,
even though the cell phone data supports the
Government’s argument that Henning spoke with

5 Further, Stephen testified that LaForest told him that
Henning would be an extra driver, indicating that Johnson did
not assign Henning’s role in everyone’s presence at either
planning meeting.

App-20
LaForest and Johnson around the time of the robbery,
there is no evidence about what was discussed.
The Government’s evidence only established that
Henning was present during the commission of the
robbery and affiliated with the robbery participants.
Evidence that Henning traveled from the meeting to
the vicinity of the Del Amo mall and evidence that he
spoke with LaForest and Johnson during the robbery
raise the inference that he acted in a manner
consistent with an emergency pick up driver. Based on
this evidence, however, a rational trier of fact could
only speculate whether Henning knew he was the
emergency pick up driver, accepted or understood that
role, and drove to the vicinity of the Del Amo mall in
order to fulfill the role.
Simply put, the evidence does not demonstrate
that Henning was an active participant in the Del Amo
robbery or did anything to aid and abet it. 6 See United
States v. Andrews, 75 F.3d 552, 555–56 (9th Cir. 1996)
(holding that no rational jury could conclude that the
defendant intentionally participated in a shooting
where the evidence showed that the defendant and
two other men accompanied the shooter to the scene of
the crime, but no evidence showed that the defendant
gave the shooter the gun, drove her to the scene,
encouraged her to shoot, or in any other obvious way
assisted her in shooting the victims.); United States v.
6 The insufficiency of the evidence is underscored by the facts
that Henning’s name did not appear on Elima’s list of Del Amo
robbery participants, the two sole cooperating witnesses who
testified about Henning’s role never spoke with Henning about
his role, and Elima did not mention Henning’s role in his original
plea agreement nor at his Change of Plea hearing.

App-21
Pena, 983 F.2d 71, 72–73 (6th Cir. 1993) (holding there
was insufficient proof that the defendant aided and
abetted the possession of cocaine with the intent to
distribute where the government “presented no
evidence of [the defendant’s] participation in the crime
other than her presence as a passenger in the car”).
The Government also argues that the jury
nevertheless could have found Henning guilty under a
conspiracy theory of responsibility. This alternative
theory of responsibility, however, fares no better. The
jury was instructed that a defendant may be found
guilty of Hobbs Act robbery based on conspiracy
responsibility. (Jury Instructions — Given, Court’s
Instruction No. 37.) The elements required to prove
conspiracy responsibility for Hobbs Act robbery are:
(1) a person committed the crime of interference with
commerce by robbery as alleged in the count under
consideration; (2) that person was a member of the
conspiracy charged in Count One; (3) that person
committed the crime of interference with commerce by
robbery in furtherance of the conspiracy; (4) defendant
was a member of the same conspiracy charged in
Count One at the time the offense charged in the count
under consideration was committed; and (5) the
offense fell within the scope of the unlawful agreement
and could reasonably have been foreseen to be a
necessary or natural consequence of the unlawful
agreement. (Id.; Ninth Circuit Model Criminal Jury
Instruction No. 8.25.)
Henning’s mere presence is insufficient to support
his conviction for the Del Amo robbery based on his
participation in a conspiracy. The Ninth Circuit has
held that mere “presence at the location of a

App-22
conspiracy’s activities, while the activities are taking
place, knowing that they are taking place, without
proof of intentional participation in the conspiracy,
cannot support a conspiracy conviction . . . [O]ur line
of ‘mere presence’ cases requires acquittal in the
absence of evidence of intentional participation.”
Herrera-Gonzalez, 263 F.3d at 1097–98 (emphasis
added); see United States v. Lopez, 625 F.2d 889, 896
(9th Cir. 1980) (holding the evidence insufficient to
support the drug conspiracy conviction of the
defendant who was arrested while in the same car as
two major conspirators, where there was no evidence
that the defendant participated in any negotiations
concerning, or delivery of, heroin, or that heroin was
ever discussed in his presence).
Consequently, Henning’s presence at the two
planning meetings and in the vicinity of the Del Amo
mall during the robbery are insufficient to prove
intentional participation in the conspiracy to commit
the Del Amo robbery. See United States v. Ocampo,
937 F.2d 485, 489 (9th Cir. 1991) (holding that mere
acquaintance with a conspirator, and geographical
proximity to drugs, will not suffice to prove even a
“slight connection” to a conspiracy). To convict
Henning based on a conspiracy theory of
responsibility, the Government had to present
evidence beyond presence to prove that Henning in
fact intentionally participated or agreed to join in the
conspiracy. The Government clearly failed to do so. 7
7 The Government argues that Henning may also held liable
under a conspiracy theory of responsibility because the evidence
showed that Henning was a member of the “robbery conspiracy”
long before the Del Amo robbery and remained a part of it

App-23
See United States v. Penagos, 823 F.2d 346, 349 (9th
Cir. 1987) (conspiracy conviction reversed despite
evidence that the defendant, who was supposedly a
lookout, was at crime scene scanning up and down the
street; the government did not produce sufficient
evidence that the defendant committed any act in
furtherance of the conspiracy because the evidence
showed that the police saw the defendant engage in
alleged counter-surveillance activities only once, not
during a drug sale or transfer, and without focusing
on “any particular persons or activities” that a lookout
would be interested in; the court noted that the
“defendant’s behavior was perfectly consistent with
that of an innocent person having no stake or interest
in drug transactions”); United States v. Cloughessy,
572 F.2d 190, 191 (9th Cir. 1977) (conspiracy
conviction reversed, although defendant was an
acquaintance of conspirators and present in a car with
the conspirators during a heroin deal, because there
was no direct evidence of the defendant’s participation
in the conspiracy and his codefendants testified that
he was not a party to the conspiracy and that he did
not participate in any of the negotiations or
discussions with the conspirators).

through that time, and that the Del Amo robbery was committed
by some members of the conspiracy who he associated with in the
days leading up to the robbery. The Government’s evidence
relates to robberies other than the Del Amo robbery and robberies
other than those charged against Henning. The Court explains
why this evidence does not provide a sufficient basis for
upholding Henning’s conviction for the robbery count in its
analysis below of Henning’s conviction for Count One.

App-24
B. Count Twelve: Section 924(c)
In Count Twelve, Henning was charged with
aiding and abetting or conspiring with others, who
knowingly brandished a firearm during and in
relation to the Del Amo robbery. The elements of using
or carrying a firearm during and in relation to, or
possessing a firearm in furtherance of, a crime of
violence, under 18 U.S.C. § 924(c) are: (1) the
defendant committed the crime of robbery, which is a
crime of violence; (2) the defendant knowingly
possessed a firearm in furtherance of, or used or
carried a firearm during and in relation to the crime
of robbery. (Jury Instructions — Given, Court’s
Instruction No. 38; Ninth Circuit Model Criminal Jury
Instruction No. 8.72.)
As the Court finds there is insufficient evidence to
support Henning’s conviction on Count Eleven for
robbery, there is also insufficient evidence to prove the
first element of Count Twelve, that Henning
committed the crime of robbery by aiding and abetting
or as a co-conspirator. See United States v. Stewart,
779 F.2d 538, 540 (9th Cir. 1985) (holding that “[t]he
relation between the firearm and the underlying
offense is an essential element of the crime . . . .”);
United States v. Mendoza, 11 F.3d 126, 128 (9th Cir.
1993) (same). Again, the Government failed to present
evidence that Henning said or did something to prove
that he intentionally participated in the conspiracy to
commit the Del Amo robbery during which a firearm
was brandished or that he said or did anything to aid
and abet that robbery.

App-25
C. Count One: Conspiracy to Commit Hobbs Act
Robbery
In Count One, Henning was charged with
conspiracy to interfere with commerce by robbery in
violation of 18 U.S.C § 1951(a). The elements for
conspiracy to interfere with commerce by robbery were
as follows: (1) beginning on an unknown date and
ending no later than or about June 3, 2016, there was
an agreement between two or more persons to commit
the crime of robbery; (2) the defendant joined in the
agreement knowing of its purpose and intending to
help accomplish that purpose; and (3) the robbery
contemplated by the agreement would affect
interstate or foreign commerce in some way. (Jury
Instructions — Given, Court’s Instruction No. 28;
Ninth Circuit Model Criminal Jury Instruction
No. 8.20.) The jury instructions in this case
specifically instructed that, “[i]t is not enough,
however, that they simply met, discussed matters of
common interest, acted in similar ways, or perhaps
helped one another. You must find that there was a
plan to commit at least one of the crimes alleged in the
indictment as an object of the conspiracy with all of
you agreeing as to the particular crime which the
conspirators agreed to commit.” (Id., Court’s
Instruction No. 31 [emphasis added].) The jury was
also instructed that, “[y]ou are here only to determine
whether each defendant is guilty or not guilty of the
charges in the Third Superseding Indictment. The
defendants are not on trial for any conduct or offense
not charged in the Third Superseding Indictment.”
(Id., Court’s Instruction No. 25; Ninth Circuit Model
Criminal Jury Instruction No. 3.10.) The jury was also
instructed that, “[a] separate crime is charged against

App-26
one or more of the defendants in each count. The
charges have been joined for trial. You must decide the
case of each defendant on each crime charged against
that defendant separately.” (Jury Instructions —
Given, Court’s Instruction No. 26; Ninth Circuit Model
Criminal Jury Instruction No. 3.13.)
The Government argues that the Court should
consider all of the evidence introduced at trial to
determine whether there was sufficient evidence to
support Henning’s convictions. The Government
would have the Court consider evidence related to
robberies that Henning was acquitted of committing,
specifically the robbery of Rolex Boutique Geary’s. To
support this argument, the Government cites United
States v. Powell, 469 U.S. 57 (1984) and United States
v. Hart, 963 F.2d 1278 (9th Cir. 1992). In both cases, a
criminal defendant moved for acquittal of a conviction
on the grounds that the jury’s verdict was
inconsistent. In Powell, the defendant was acquitted
of both conspiracy to possess cocaine with the intent to
distribute and possession of cocaine, but convicted of
using a telephone in “committing and in causing and
facilitating” the alleged conspiracy and possession.
Powell, 469 U.S. at 59–60, 67. In Hart, the defendant
was convicted of conspiracy to distribute cocaine, but
acquitted of distributing or aiding and abetting the
distribution of cocaine. Hart, 963 F.2d at 1280. The
Government cites Powell for the unremarkable
proposition that sufficiency of the evidence review
“should be independent of the jury’s determination
that evidence on another count was insufficient.”
Powell, 469 U.S. at 68. The Government cites Hart to
demonstrate that the Ninth Circuit considered the
evidence underlying the acquitted count for

App-27
distributing or aiding and abetting the distribution of
cocaine when it reviewed the sufficiency of the
evidence to support the defendant’s conviction for
conspiracy to distribute cocaine. Hart, 963 F.2d at
1282.
This case presents fundamentally different
circumstances from Powell and Hart. In those cases,
the defendant challenged as inconsistent a guilty
verdict on one charge when the jury acquitted on a
different charge. 8 Those courts held that the jury’s
guilty verdict in such cases is insulated from review
because courts are reluctant to inquire into the jury’s
rationale and the Government is unable to seek review
of acquittals. Hart, 963 F.2d at 1281; Powell, 469 U.S.
at 64–65. Here, a defendant is not challenging a guilty
verdict as being inconsistent with a jury’s verdict of
acquittal. To the contrary, the Government is trying to
do an end-run around a jury’s verdict of acquittal.
Henning was charged with four Hobbs Act robberies
based on an aiding and abetting theory and a
conspiracy theory of responsibility. The jury acquitted
Henning of the robberies at Rolex Boutique Geary’s,
Los Angeles, Manya Jewelry, Woodland Hills, and
Westime, West Hollywood. By acquitting Henning of
these three robberies, the jury specifically acquitted
Henning of conspiracy to commit those robberies. To
The Government also cites United States v. Christensen, 828
F.3d 763 (9th Cir. 2015), cert. denied, 137 S. Ct. 628 (2017), where
the defendant challenged his RICO conspiracy conviction on the
basis that it was inconsistent with his acquittal of the related
substantive offenses for which he was charged. Like Hart and
Powell, the defendant in Christensen challenged the jury’s verdict
where they found guilt on one charge and acquitted the defendant
of a different charge.
8

App-28
now find Henning guilty of conspiracy on Count One
based on these three robberies would completely
contradict the jury’s verdict. Due Process prohibits
such an unjust result. See United States v. Rivera, 411
F.3d 864, 866 (7th Cir. 2005) (“Once the jury has
spoken, its verdict controls unless the evidence is
insufficient or some procedural error occurred.”);
Harris v. Rivera, 454 U.S. 339, 346 (1981) (recognizing
“the unreviewable power of a jury to return a verdict
of not guilty for impermissible reasons”); United
States v. Alvarez-Valenzuela, 231 F.3d 1198, 1201–02
(9th Cir. 2000) (when reviewing for sufficiency of the
evidence, “any conflicts in the evidence are to be
resolved in favor of the jury’s verdict”).
The Government also argues that the Court
should consider evidence of Henning’s alleged
involvement in the attempted robbery at Ben Bridge
Santa Monica. This robbery was alleged in Count One
of the Third Superseding Indictment as an overt act in
furtherance of the conspiracy. At trial, the only
evidence concerning Henning’s alleged involvement in
this attempted robbery was the testimony of another
cooperating witness, Darrell Dent. Dent testified that
after the attempted robbery, Henning told him that
the participants were from the Bounty Hunters, a
Bloods sect from Watts, California, and that Johnson
told him that Henning “got the players,” or robbery
participants. (Dkt. 1048 [Transcript 8/31/17 Vol. I]
106.) The Government argues that this testimony
proves that Henning recruited the participants for the
attempted robbery in Santa Monica. The Court
disagrees. Dent’s testimony, at best, proves that
Henning had knowledge of and an affiliation with the
alleged participants in the attempted robbery. It does

App-29
not prove beyond a reasonable doubt that he
intentionally participated as a recruiter in the
attempted robbery in Santa Monica. Specifically, Dent
never testified that Henning told him that he
recruited the alleged participants, and, more
importantly, neither Dent nor any other witness
testified at trial who the participants were that were
recruited, how they were recruited, where they were
recruited, or when they were recruited. Much more is
required to prove beyond a reasonable doubt that
Henning was a co-conspirator involved in the
attempted robbery in Santa Monica. See Cloughessy,
572 F.2d 190; (see Jury Instructions — Given, Court’s
Instruction Nos. 36, 51.)
The Government also argues that the Court
should consider evidence of Henning’s involvement in
robberies that were not charged against any
defendant in the Third Superseding Indictment and
evidence about Henning’s involvement in activities
with no connection to any specific robbery. (Dkts. 970
[Transcript 8/31/17 Vol. II] at 50–51, 1047 [Transcript
8/30/17 Vol. II] at 128–29.) Because none of this
evidence is related to a robbery charged against
Henning, the Court will not consider it as evidence of
the conspiracy charged in Count One. It is a wellestablished principle of criminal law that a defendant
cannot be convicted for any uncharged conduct or
offense. See United States v. Ward, 747 F.3d 1184,
1191 (9th Cir. 2014) (holding that it was reversible
error to permit the jury to convict on counts of
aggravated identity theft against two victims named
in indictment based on evidence presented at trial of
uncharged conduct against identity-theft victims not
named in indictment, noting that the court “needs

App-30
some way of assuring that the jury convicted the
defendant based solely on the conduct actually
charged in the indictment. Typically, that assurance
will be provided by jury instructions requiring the jury
to find the conduct charged in the indictment before it
may convict.”); (Jury Instructions — Given, Court’s
Instruction Nos. 25, 26; Ninth Circuit Model Criminal
Jury Instruction Nos. 3.10, 3.13.)
The bottom line is that the Government’s evidence
only showed that Henning was present at the
planning meetings and in the vicinity of the Del Amo
mall during the robbery. To be sure, these facts may
give rise to some suspicion that he was involved in the
conspiracy to commit the Del Amo robbery, but they
do not prove it beyond a reasonable doubt. The Court
is left to speculate that Henning actually participated
in or joined in the conspiracy and, if he did participate
or join in it, how he did so. Without any evidence that
Henning said or did anything at the planning
meetings or during the robbery to participate in its
commission, the Government’s evidence adds up to
mere presence and nothing more. Henning’s presence,
without any affirmative action or statements on his
part, is simply insufficient as a matter of law to
support his conviction for conspiracy. Therefore, the
Court must set it aside.
IV. CONCLUSION
For the foregoing reasons, Defendant Henning’s
motion for acquittal is GRANTED. 9 Defendant
9 Henning has also filed a motion to dismiss the case for
prosecutorial misconduct or, in the alternative, for new trial.
(Dkt. 1104.) Federal Rule of Criminal Procedure 33 provides that
“[u]pon the defendant’s motion, the court may vacate any

App-31
Henning’s motion for release
(Dkt. 1064), is DENIED as moot.

from

custody,

DATED: December 20, 2017
s/

CORMAC J. CARNEY

UNITED STATES DISTRICT JUDGE

judgment and grant a new trial if the interest of justice so
requires.” Fed. R. Crim. P. 33(a). A motion for a new trial is
“directed to the discretion of the district judge,” and should be
granted “only in exceptional cases,” United States v. Pimentel,
654 F.2d 538, 545 (9th Cir. 1981), such as where “despite the
abstract sufficiency of the evidence to sustain the verdict, the
evidence preponderates sufficiently heavily against the verdict
that a serious miscarriage of justice may have occurred,” United
States v. Alston, 974 F.2d 1206, 1211–12 (9th Cir. 1992). Justice
demands that Henning be granted a new trial as the Government
has failed to present sufficient evidence to prove Henning did
anything to participate in or conspire to commit the Del Amo
robbery. The Court conditionally GRANTS Henning’s motion for
new trial.

App-32
Appendix C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 18-50005
________________
UNITED STATES OF AMERICA,
v.

Plaintiff-Appellant,

JUSTIN MARQUES HENNING, aka J-Stone,
Defendant-Appellee.
________________
Appeal from the United States District Court
for the Central District of California, Santa Ana
No. 8:16-cr-00029-CJC-7
________________
Filed February 5, 2020
ECF Document 82
________________
ORDER
Before: MURGUIA and HURWITZ, Circuit Judges,
and GUIROLA, * District Judge.
The panel has voted to deny the petition for panel
rehearing. Judges Murguia and Hurwitz have voted to

* The Honorable Louis Guirola, Jr., United States District
Judge for the Southern District of Mississippi, sitting by
designation.

App-33
deny the petition for rehearing en banc, and Judge
Guirola so recommends.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for panel rehearing and rehearing en
banc, Dkt. 81, is DENIED.

App-34
Appendix D
Relevant Excerpts
Statutes, & Rule

of

Constitutional

Provision,

U.S. Const. amend. V
No person shall be . . . deprived of life, liberty,
or property, without due process of law.

App-35
18 U.S.C. § 924(c)
(c)(1)(A) Except to the extent that a greater
minimum sentence is otherwise provided by this
subsection or by any other provision of law, any person
who, during and in relation to any crime of violence or
drug trafficking crime (including a crime of violence or
drug trafficking crime that provides for an enhanced
punishment if committed by the use of a deadly or
dangerous weapon or device) for which the person may
be prosecuted in a court of the United States, uses or
carries a firearm, or who, in furtherance of any such
crime, possesses a firearm, shall, in addition to the
punishment provided for such crime of violence or
drug trafficking crime—
(i) be sentenced to a term
imprisonment of not less than 5 years;

of

(ii) if the firearm is brandished, be
sentenced to a term of imprisonment of not
less than 7 years; and
(iii) if the firearm is discharged, be
sentenced to a term of imprisonment of not
less than 10 years.
(B) If the firearm possessed by a person
convicted of a violation of this subsection—
(i) is a short-barreled rifle, short-barreled
shotgun, or semiautomatic assault weapon,
the person shall be sentenced to a term of
imprisonment of not less than 10 years; or
(ii) is a machinegun or a destructive
device, or is equipped with a firearm silencer
or firearm muffler, the person shall be

App-36
sentenced to a term of imprisonment of not
less than 30 years.
(C) In the case of a second or subsequent
conviction under this subsection, the person
shall—
(i) be sentenced to a term of
imprisonment of not less than 25 years; and
(ii) if the firearm involved is a
machinegun or a destructive device, or is
equipped with a firearm silencer or firearm
muffler, be sentenced to imprisonment for life.
(D) Notwithstanding any other provision of
law—
(i) a court shall not place on probation any
person convicted of a violation of this
subsection; and
(ii) no term of imprisonment imposed on a
person under this subsection shall run
concurrently with any other term of
imprisonment imposed on the person,
including any term of imprisonment imposed
for the crime of violence or drug trafficking
crime during which the firearm was used,
carried, or possessed.
(2) For purposes of this subsection, the term “drug
trafficking crime” means any felony punishable under
the Controlled Substances Act (21 U.S.C. 801 et seq.),
the Controlled Substances Import and Export Act (21
U.S.C. 951 et seq.), or chapter 705 of title 46.
(3) For purposes of this subsection the term “crime
of violence” means an offense that is a felony and—

App-37
(A) has as an element the use, attempted use,
or threatened use of physical force against the
person or property of another, or
(B) that by its nature, involves a substantial
risk that physical force against the person or
property of another may be used in the course of
committing the offense.
(4) For purposes of this subsection, the term
“brandish” means, with respect to a firearm, to display
all or part of the firearm, or otherwise make the
presence of the firearm known to another person, in
order to intimidate that person, regardless of whether
the firearm is directly visible to that person.
(5) Except to the extent that a greater minimum
sentence is otherwise provided under this subsection,
or by any other provision of law, any person who,
during and in relation to any crime of violence or drug
trafficking crime (including a crime of violence or drug
trafficking crime that provides for an enhanced
punishment if committed by the use of a deadly or
dangerous weapon or device) for which the person may
be prosecuted in a court of the United States, uses or
carries armor piercing ammunition, or who, in
furtherance of any such crime, possesses armor
piercing ammunition, shall, in addition to the
punishment provided for such crime of violence or
drug trafficking crime or conviction under this
section—
(A) be sentenced to a term of imprisonment of
not less than 15 years; and
(B) if death results from the use of such
ammunition—

App-38
(i) if the killing is murder (as defined in
section 1111), be punished by death or
sentenced to a term of imprisonment for any
term of years or for life; and

(ii) if the killing is manslaughter (as
defined in section 1112), be punished as
provided in section 1112.

App-39
18 U.S.C. § 1951(a)
Interference with commerce by threats
or violence
(a) Whoever in any way or degree obstructs,
delays, or affects commerce or the movement of any
article or commodity in commerce, by robbery or
extortion or attempts or conspires so to do, or commits
or threatens physical violence to any person or
property in furtherance of a plan or purpose to do
anything in violation of this section shall be fined
under this title or imprisoned not more than twenty
years, or both.

App-40
Fed. R. of Crim. P. 29.
Motion for a Judgment of Acquittal
(a) Before Submission to the Jury. After the
government closes its evidence or after the close of all
the evidence, the court on the defendant’s motion must
enter a judgment of acquittal of any offense for which
the evidence is insufficient to sustain a conviction. The
court may on its own consider whether the evidence is
insufficient to sustain a conviction. If the court denies
a motion for a judgment of acquittal at the close of the
government’s evidence, the defendant may offer
evidence without having reserved the right to do so.
(b) Reserving Decision. The court may reserve
decision on the motion, proceed with the trial (where
the motion is made before the close of all the evidence),
submit the case to the jury, and decide the motion
either before the jury returns a verdict or after it
returns a verdict of guilty or is discharged without
having returned a verdict. If the court reserves
decision, it must decide the motion on the basis of the
evidence at the time the ruling was reserved.
(c) After Jury Verdict or Discharge.
(1) Time for a Motion. A defendant may move
for a judgment of acquittal, or renew such a
motion, within 14 days after a guilty verdict or
after the court discharges the jury, whichever is
later.
(2) Ruling on the Motion. If the jury has
returned a guilty verdict, the court may set aside
the verdict and enter an acquittal. If the jury has
failed to return a verdict, the court may enter a
judgment of acquittal.

App-41
(3) No Prior Motion Required. A defendant is
not required to move for a judgment of acquittal
before the court submits the case to the jury as a
prerequisite for making such a motion after jury
discharge.
(d) Conditional Ruling on a Motion for a New
Trial.
(1) Motion for a New Trial. If the court enters
a judgment of acquittal after a guilty verdict, the
court must also conditionally determine whether
any motion for a new trial should be granted if the
judgment of acquittal is later vacated or reversed.
The court must specify the reasons for that
determination.
(2) Finality. The court’s order conditionally
granting a motion for a new trial does not affect
the finality of the judgment of acquittal.
(3) Appeal.
(A) Grant of a Motion for a New Trial. If
the court conditionally grants a motion for a
new trial and an appellate court later reverses
the judgment of acquittal, the trial court must
proceed with the new trial unless the
appellate court orders otherwise.
(B) Denial of a Motion for a New Trial. If
the court conditionally denies a motion for a
new trial, an appellee may assert that the
denial was erroneous. If the appellate court
later reverses the judgment of acquittal, the
trial court must proceed as the appellate court
directs.

